E           valuation


R            eport

             THE DEFENSE SUPPLY CENTER RICHMOND
               QUALIFIED PRODUCTS LIST PROGRAM



Report No. D-2002-013                       November 2, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax 604-8932.


  Suggestions for Future Evaluation

  To suggest ideas for or to request evaluations, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASSIST                Acquisition Streamlining and Standardization Information System
DLA                   Defense Logistics Agency
DSC                   Defense Supply Center
FAR                   Federal Acquisition Regulation
GIDEP                 Government Industry Data Exchange Program
NSN                   National Stock Number
PQDR                  Product Quality Deficiency Report
PVP                   Product Verification Program
QAS                   Quality Assurance Specialist
QML                   Qualified Manufacturers List
QPL                   Qualified Products List
SAMMS                 Standardized Automated Material Management System
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objective                                                             3

Finding
     Effectiveness of Management of the Qualified Products List Program   4


Appendixes
     A. Evaluation Process
         Scope and Methodology                                            10
         Management Control Program Review                                11
         Prior Coverage                                                   12
     B. Qualified Products List Program                                   13
     C. Report Distribution                                               16


Management Comments
     Defense Logistics Agency                                             19
                         Office of the Inspector General, DoD

Report No. D-2002-013                                             November 2, 2001
   (Project No. D2001PT-0023)

                     The Defense Supply Center Richmond
                       Qualified Products List Program

                                Executive Summary

Introduction. This report is a review of the Defense Supply Center (DSC) Richmond
Qualified Products List (QPL) Program. A subsequent report will provide a similar
review of the Defense Supply Center Columbus. The DSC Richmond QPL Program
was started in 1995 when the Military Departments transferred the management of 40
Military Specifications containing qualification and associated Qualified Products Lists
to the Defense Supply Center Richmond. The Standardization Program Branch of the
Product Development Directorate was assigned the responsibility of managing the QPL
Program. Because the Defense Supply Center management directed the Standardization
Program Branch to work on another higher priority program, no personnel were
assigned to a cost code for Qualified Products Lists administration, management, or
maintenance. No labor hours were recorded for time spent on Qualified Products Lists
maintenance and administration. However, the Qualified Products Lists management
estimated that 1 staff-year was devoted to the Qualified Products Lists Program in
FY 2000.

Objective. Our objective was to evaluate the Defense Supply Centers’ Quality
Assurance Programs. Specifically, we evaluated the effectiveness of the Defense
Supply Center Richmond Qualified Products List Program.

Results. An effective product qualification process was not realized at DSC Richmond.
DSC Richmond could not conduct facility audits, adequately maintain the QPL
Program’s list of Government designation status and qualified manufacturers (and
authorized distributors), or monitor QPL-related product deficiencies. As a result, the
Government could not obtain the benefits of the QPL Program, and the users were at a
higher risk of receiving nonconforming products. For details of the evaluation results,
see the Finding section of this report.

Summary of Recommendations. We recommend that the Commander, Defense
Supply Center Richmond, fully implement the procedures specified in the Department
of Defense and Defense Logistics Agency regulations to qualify products; to review
specifications and recertify products; to provide product quality deficiency reports to
the qualified products list management; and to require that the databases contain
complete, pertinent, and current information that can distinctly identify qualified
national stock numbers.

Management Comments. The Defense Logistics Agency fully concurred with all
recommendations listed in the evaluation report on Defense Supply Center Richmond
Qualified Lists Program and proposed to take corrective measures by specific dates to
rectify the weaknesses highlighted in the report. The Defense Logistics Agency agreed
to direct the Defense Supply Center Richmond to provide adequate training to Qualified
Products Lists Program personnel, to perform a baseline review of specifications
having requirements for qualification to determine the need to continue qualification
requirement, to review and delineate the Program Center and Qualification Activity
responsibilities with respect to Qualified Products Lists product nonconformance, and
to revise the applicable Richmond Center Directive. The Defense Logistics Agency
also agreed to build an additional table into the Defense Supply Center Richmond
Decision Support Database to link qualified national stock numbers to Qualified
Products Lists and its associated Qualifying Activity to determine whether the Qualified
Products Lists are managed by the Military Departments or by Defense Supply Center
Richmond.

Evaluation Response. The Defense Logistics Agency management comments are fully
responsive.




                                           ii
Background
    Congress mandated the Qualified Products List (QPL) Program in 1956.
    Section 2451, title 10, United States Code (10 U.S.C. 2451), “Defense Supply
    Management,” August 1956, required the Secretary of Defense to develop a
    single catalog system and related program of standardizing supplies for the
    Department of Defense. Title 10, U.S.C., 2451 further stated that the Secretary
    of Defense should ensure efficient use of the services and facilities for
    inspecting, testing, and accepting supplies. Section 2452, title 10, United States
    Code (10 U.S.C. 2452), “Duties of the Secretary of Defense,” required the
    Secretary to develop and maintain the supply catalog and the standardization
    program as described in 10 U.S.C. 2451. The Federal Acquisition Regulation
    (FAR) subpart 9.2 “Qualification Requirements,” implemented 10 U.S.C. 2319
    and 41 U.S.C. 253c and prescribed policies and procedures regarding
    qualification requirements and acquisitions that were subject to such
    requirements. Sections 9.201 and 9.203 of the FAR defined and described QPL
    and Qualified Manufacturers List (QML).

    The QPL Program aims to increase buying productivity and enhance logistics
    management operations by establishing a list of products that have met the
    qualification requirements stated in the applicable specification. The
    requirements will also include appropriate product identification and test or
    qualification reference with the name and plant address of the manufacturer and
    distributor as applicable for select commodities. Instead of source inspections
    and product verifications, quality levels are maintained through periodic
    recertification of the manufacturer by the Government, use of deficiency
    reporting information provided by the user, and product quality control
    procedures maintained by the manufacturer. The intended results are shorter
    lead times for acquisition and procurement, reduced test costs, and improved
    readiness through continuous availability of reliable products from viable
    suppliers. Policies and procedures for the Qualification Program (QPL and
    QML) are contained in Appendix B of DoD Manual 4120.24-M. Some of its
    salient features are discussed as follows.

    Qualifying Potential Products, Processes, and Materials. Qualification is the
    process by which products, processes, or materials of manufacturers or
    distributors are independently examined and tested to determine whether they
    conform to specification requirements before they are acquired. Products and
    manufacturers that successfully pass the qualification process are then identified
    on a list of qualified products or qualified manufacturers. Criteria to retain
    qualification are applied periodically to ensure continued integrity of the
    qualification status.

    Maintaining the Product Quality. Once added to a QPL, the manufacturer,
    the user, and the Government are responsible for maintaining product quality.
    The manufacturer maintains adequate process and quality control procedures to
    ensure that items continually comply with all specification requirements, reports
    deficiencies disclosed during testing, and ensures that delivered items conform
    to all requirements. The user ensures that the qualified products comply with


                                        1
the specification requirements by reporting nonconformances and by submitting
periodic summaries of quality control monitoring results that reveal adverse
quality and reliability trends.

Review and Recertification. The Preparing Activity must review specifications
that require qualification every 2 years to determine the need to continue the
qualification requirement. The specification review process shows whether
more definitive requirements for the product, advances in manufacturing
techniques and quality control methods, or improvements in testing apparatus
and techniques have eliminated the need for qualification. The recertification
process determines whether the listed product or products are manufactured at
the same plants shown on the listing and whether they are being manufactured
under the original conditions as when first qualified. The process also
determines whether the plants have remained under the same management. To
obtain qualification approval of products, one of the following actions is
required: a. Certification by the manufacturer (submittal of a DD 1718 Form
“Certification of Qualified Products”; b. Periodic submission of new test data,
as may be required in the specification; or c. Complete requalification testing,
as may be required in the specification or by the Qualifying Activity.

QPL Program at Defense Supply Center Richmond. The QPL Program at
Defense Supply Center (DSC) Richmond began in 1995 when it inherited
ownership of 40 QPLs from the Military Departments. At the present time,
DSC Richmond manages 31 QPLs and related specifications for 3,843 qualified
national stock numbers (NSNs) which are procured from 93 qualified
manufacturers and distributors. These 3,843 qualified NSNs include
tachometers, wire rope, ball bearings, pressure gauges, cable, and batteries and
are among 930,000 NSNs procured by DSC Richmond.

DSC Richmond comprises three key divisions that contribute to the maintenance
of its QPLs. These are Product Development, Planning and Resource
Management, and Business Operations. The primary management of the QPLs
is the responsibility of the Standardization Program Branch of the
Standardization and Hazardous Materials (Hazmat) Information Division, a
subset of the Product Development Group (Figure 1). That branch follows DoD
Manual 4120.24-M to manage the QPL Program and is responsible for
administering the qualification program, maintaining current specifications, and
ensuring the manufacturers’ compliance with qualification requirements. All
specifications and corresponding QPLs are maintained in Defense Logistics
Agency (DLA) Acquisition Streamlining and Standardization Information
System (ASSIST).

The Systems and Procedures Division of Planning and Resource Management
serves as the focal point for receiving complaints in the form of Product Quality
Deficiency Reports (PQDRs), providing entry to the Customer Depot Complaint
System (CDCS), and distributing the complaints to an appropriate quality
assurance specialist (QAS) for investigation, resolution, and response. Each
QAS provides quality assurance support to a Product Center that is assigned the
management and procurement responsibilities for a group of NSNs, including
QPLs. Upon receiving a complaint, the QAS assesses the need for




                                    2
    investigation, initiates the necessary corrective actions for the reported defective
    items, and coordinates with other elements and Components within DSC
    Richmond as applicable.




              Figure 1. QPL Related Organizational Components



Objective
    Our objective was to evaluate the Defense Supply Centers’ Quality Assurance
    Programs. Specifically, we evaluated the effectiveness of the Defense Supply
    Center Richmond Qualified Products List Program.




                                         3
           Effectiveness of Management of the
           Qualified Products List Program
           DSC Richmond did not have an effective product qualification process
           because it did not implement procedures for the QPL Program as
           required by regulations and because it did not formulate internal QPL
           policy to define the responsibilities of the participants in the program.
           Further, DSC Richmond could neither conduct facility audits nor
           adequately maintain the QPL Program’s list of Government designation
           status and qualified manufacturers (and authorized distributors) because
           it had not organized a trained staff to fully implement qualification
           procedures. In addition, DSC Richmond could not monitor product
           nonconformances because the appropriate mechanisms had not been
           instituted between those receiving reported deficiencies and those
           maintaining the QPLs. As a result, the Government could not obtain the
           benefits of the QPL Program, and the users were at a higher risk of
           receiving nonconforming products.



Guidance and Implementation of Programs
    DoD Manual 4120.24-M, “Defense Standardization Program (DSP), Policies
    and Procedures,” March 2000 provides procedures for establishing Qualified
    Products List (QPL) and Qualified Manufacturers List (QML) Programs.
    Defense Standardization Program Office Document, SD-6, “Provisions
    Governing Qualification for QPL and QML Programs,” dated August 1999
    provides guidance for manufacturers and their authorized distributors who want
    to submit products for qualification. The QPL Program was not working
    effectively at DSC Richmond. Some of the DSC Richmond QPL Program
    management issues are discussed as follows.

    QPL Program Policy. DoD as well as DLA have provided detailed QPL
    policies and procedures. Although the QPL Program management followed the
    guidance provided in the DoD 4120.24-M, DSC Richmond had neither
    formulated nor implemented an adequate in-house policy to integrate the QPL
    Program into the facility’s operations. The successful execution of the QPL
    Program required shared responsibilities among the DSC Richmond
    components, the user, and the contractor. A study of DSC Richmond’s internal
    operations and data from deficiency reporting demonstrated poor coordination
    among the participating components and a lack of resources for adequate
    management.

    QPL Resources. The Standardization Program Branch of the Product
    Development Directorate was assigned the responsibility of the management of
    the QPL Program in 1995. However, at that time, the Defense Supply Center
    management directed the Standardization Program Branch to work on another


                                       4
higher priority program. Consequently, from 1995 to 2000 the Standardization
Program Branch worked on the Specification Reform Program. Although the
management of the QPL Program was funded by the Product Centers, the
management did not designate specific individuals to maintain the QPL
Program. No personnel were assigned to a cost code for QPL administration,
management, or maintenance. No labor hours were recorded for time spent on
QPL maintenance and administration. However, total resources devoted to the
QPL Program in FY 2000 were estimated by QPL management at 1 staff-year.

Facility Audits. The DoD Manual 4120.24-M states that facility audits for
products should be conducted when required in the specification or when
otherwise necessary to ensure product compliance with the specification
requirements. Audits may include survey of inspection systems, quality and
reliability assurance programs, test facilities, processes, materials, production
facilities, test capability, incoming inspection training, and product traceability.
As of November 29, 2000, the DSC Richmond QPL management had neither
conducted any facility audits nor had trained a group for such work.

Review of Specification and Recertification of QPLs. The DoD
Manual 4120.24-M required the Preparing Activity to review specifications that
required qualification every 2 years to determine the need to continue the
qualification requirement. The recertification process occurs by either having
the manufacturer complete a “Certification of Qualified Products Form” or, if
required, retesting of products because of changes to the specifications.
Specifications are reviewed to determine the need for continued qualification.
Only 4 of the 31 QPLs and 23 of those 31 Military Specifications containing
qualification requirements managed by DSC Richmond were up to date
(Figure 2).




   Figure 2. Current Status of Recertification and Review of DSC
   Richmond’s QPL Program


                                      5
Deficiency Reporting Program. DoD Manual 4120.24-M mandates that the
buying activity provide feedback data based on field information to the
qualifying activity. However, at DSC Richmond, problems existed with the
QPL Program’s ability to acquire such feedback and monitor nonconforming
qualified products. DSC Richmond did not establish adequate mechanisms
between the QPL management and the Product Centers to identify potential
quality problems among QPL products. As a result, QPL management could
not adequately monitor its product deficiencies and could not take corrective
actions against nonconforming QPL products.

This was demonstrated by our review of three types of PQDRs received from
two sources, the depots and the Product Verification Program (PVP). PQDRs
from customer complaints received through the depots were classified as either
Category I or II. A Category I PQDR was defined as a deficiency that could
cause death, injury, or major damage to a weapon system. Category II PQDRs
were defined as those deficiencies not meeting the criteria for Category I. The
third type of PQDR was generated internally as a result of PVP random testing.

Since 1995, a total of 77 PQDRs were received at DSC Richmond addressing
problems with qualified NSNs, 70 of which were related to critical items.
Followup evaluations by the Product Centers for 70 of those PQDRs were
conducted and closed. The closed evaluations included 1 Category I-, 62
Category II-, and 7 PVP-related PQDRs. Of the 77 PQDRs, only one, a
Category II PQDR, was coordinated with the DSC Richmond QPL
management. The problem was related to the failure of aircraft cabling whose
manufacturer was subsequently removed from QPL-83420 in 1999. As of
November 29, 2000, seven evaluations were open but had not been coordinated
with QPL management. Those included six Category II and one PVP-related
PQDRs.

QPL and NSN Relationship. Effective management of the QPL Program
requires ready access to current and pertinent information. When the Inspector
General, DoD, requested QPL-related information, DSC Richmond spent
several hours or days retrieving and providing the information from their
databases. The QPL Program management had significant difficulties in
identifying and acquiring QPL data. Difficulties included accessing basic
information regarding specification to NSN relationships and associated QPLs.
Prior to our visit on November 29, 2000, DSC Richmond was not aware of
which NSNs were QPL NSNs. Moreover, the QPL data that we acquired from
DSC Richmond resources were neither complete nor reliable and needed
additional refinement to distinguish the QPLs managed by the Military
Departments from those managed by DSC Richmond.




                                   6
Conclusion
    The success of a QPL Program requires that responsibilities be distributed
    among the user, the manufacturer, and DSC Richmond. To receive the benefits
    of the program, each party must fulfill its obligations to maintain adequate
    process and quality control procedures to ensure that items continually comply
    with all specification requirements. At DSC Richmond, these mechanisms have
    not been successfully implemented because of a lack of internal QPL policy and
    dedicated resources. Because DSC Richmond has not organized a trained staff
    to fully implement qualification procedures, it could not conduct facility audits
    which are necessary for evaluating a manufacturer’s product quality and
    reliability assurance. Furthermore, the lack of an adequate qualifying
    organization has contributed to problems associated with maintaining DSC
    Richmond’s specifications and QPLs. Also, without reviewing deficiency
    reports, the DSC Richmond QPL management could not effectively monitor
    product quality. Consequently, most product center corrective actions to
    resolve reported nonconformances for a qualified part are not reflected in the
    associated contractor’s status on a QPL. In summary, many of the quality
    control mechanisms essential for the establishment of a successful QPL Program
    are not in place at DSC Richmond. Because many of their qualified products
    are designated as critical, customers receiving items from QPLs may be
    subjected to significant risks.
    Management Comments on the Finding and Evaluation
    Response
    Although the DLA management concurred with all four recommendations, they
    made specific comments pertinent to some paragraphs of the report. The
    comments pertained to the history of the DSC Richmond QPL Program and the
    congressional mandate for initiating a QPL program. QML Program was not
    included in the congressional mandate. The comments also included explanation
    of qualification, certification and recertification requirements of products for
    inclusion into QPLs, and replacement of reference document SD-6 with a more
    appropriate reference, DOD Manual 4120.24-M.

    Evaluation Response. The DLA management comments were constructive.
    The comments provided additional factual information on the DSC Richmond
    QPL Program and terms. We incorporated the suggested changes.

    Recommendations and Management Comments
    Recommendations 1. and 2. were revised as a result of the DLA management
    comments to replace references to the Defense Standardization Program Office
    Document SD-6, “Provisions Governing Qualification for QPL and QML
    Programs with DoD Manual 4120.24M, Defense Standardization Program
    (DSP), Policies and Procedures.” A line was added to Recommendation 1. after
    the words “qualify products” as follows: “...and to adequately monitor
    qualification programs to ensure products that are listed on QPLs meet
    specification requirements.”

                                        7
We recommend that the Commander, Defense Supply Center Richmond:

1. Fully implement the procedures specified in the DoD Manual 4120.24-M,
“Defense Standardization Program (DSP), Policies and Procedures,” March
2000 to qualify products and to adequately monitor qualification programs
to ensure products that are listed on Qualified Products Lists meet
specification requirements.

Management Comments. DLA concurred and proposed to take corrective
action by ensuring that the personnel responsible for managing the QPL
Program have adequate levels of training and experience with all the processes
necessary to maintain a comprehensive and effective QPL Program. The
training of Defense Supply Center Richmond personnel by the DSC Columbus
QPL personnel will be accomplished by the end of calendar year 2001 and
training course work to achieve Level II certification in Manufacturing,
Production, and Quality Assurance will be accomplished by the end of calendar
year 2003.

2. Fully implement the procedures specified in the DoD Manual 4120.24-M
to review specifications and recertify products.

Management Comments. DLA concurred and proposed to take the following
corrective actions. DLA directed the Preparing Activity at Defense Supply
Center Richmond to perform a baseline review of specifications having
requirements for qualification to determine the need to continue qualification
requirement. The review began in July 2000 and should be completed by
January 2002. Further, the Qualifying Activity at DSC Richmond was tasked to
send recertification letters to suppliers and distributors and visit manufacturing
facilities, as necessary, to verify compliance with specification requirements.
This process was also started in July 2000 and should be completed by January
2002. After the QPLs are updated, the DSC Richmond will perform the
recertification process every 2 years as mandated by DoD Manual 4120.24-M.

3. Provide Product Quality Deficiency Reports information to the Qualified
Product List managers at the Defense Supply Center Richmond, the
Defense Logistics Agency, and to the Military Departments to update the
Qualified Products Lists.

Management Comments. DLA concurred and proposed to take corrective
action by reviewing Product Center responsibilities with the Defense Supply
Center Richmond Technical/Quality Council and by revising DSCR
Directive 4120.A, Standardization Program, to clearly delineate the Program
Center and Qualification Activity with respect to QPL product nonconformance.
The revision of the DSCR Directive 4120.A will be completed by January 2002.
DLA also proposed to conduct training sessions for all technical and quality
assurance personnel at each Product Center. Training is expected to be
accomplished by the end of July 2002.




                                    8
4. Require that the databases contain complete, pertinent, and current
information that can distinctly identify qualified national stock numbers
and determine whether the Qualified Products Lists are managed by the
Military Departments or by Defense Supply Center Richmond.

Management Comments. DLA concurred and proposed to take the following
corrective actions. DSC will build an additional table into the DSC Richmond
Decision Support Database to link qualified NSNs to QPLs and its associated
Qualifying Activity to determine whether the QPLs are managed by the Military
Departments or by DSC Richmond. The additional table should be completed
by the end of March 2002. DSC Richmond will also establish a quarterly report
by the end of July 2002 to facilitate management oversight of the NSNs against
QPLs, as the report will link the DSC managed NSNs with their procurement
specifications for the Standardization Program Branch.




                                  9
Appendix A. Evaluation Process
Scope and Methodology
    To accomplish the evaluation objective, we studied DSC Richmond management
    of the QPL Program including qualification process, maintenance of
    specifications and list of contractors, and its response to quality related problems
    associated with QPL items.

    We conducted the evaluation from October 4, 2000, through March 2001 in
    accordance with standards implemented by the Inspector General, DoD. We
    reviewed the DSC Richmond organizational structure, QPL related maintenance
    actions, and reported deficiencies against qualified products. We obtained and
    reviewed DSC Richmond’s 31 QPLs containing 3,843 items and analyzed data
    from 3 deficiency reporting programs: PQDR, PVP, and Government Industry
    Data Exchange Program (GIDEP). We evaluated Category I and II types of
    nonconformances in the 77 nonconformances attributed to the QPL items
    managed by DSC Richmond. Results of the evaluation provided insights into
    the effectiveness of the program and the adequacy of its quality control efforts.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goals and subordinate performance goals:

           •   FY 2001 DoD Corporate-Level Goal 1: Shape the international
               environment and respond to the full spectrum of crises by providing
               appropriately sized, positioned, and mobile forces. (01-DoD-01)

           •   FY 2001 DoD Subordinate Performance Goal 1.3: Maintain the
               capability to move military forces from the United States to any
               location in the world in response to aggression, using a combination
               of airlift, sealift, and pre-positioned equipment. (01-DoD-1.3)

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains United States qualitative superiority in key warfighting
               capabilities. Transform the force by exploiting the Revolution in
               Military Affairs, and reengineer the Department to achieve a 21st
               century infrastructure. (01-DoD-02)

           •   FY 2001 DoD Subordinate Performance Goal 2.4: Meet combat
               forces’ needs smarter and faster, with products and services that
               work better and cost less, by improving the efficiency of DoD
               acquisition processes. (01-DoD-2.4)




                                        10
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This evaluation provides
    coverage of the DoD Weapon Systems Acquisition high-risk area.

    Use of Computer-Processed Data. We analyzed and evaluated data related to
    the QPL items managed by the DSC Richmond from the CDCS, the Defense
    Logistics Agency’s SAMMS, ASSIST databases, and the GIDEP database. We
    did not establish the reliability of the data because the scope of our evaluation
    was limited to identifying the number of procurement transactions DoD
    acquisition organizations conducted between 1995 and 2000. Not establishing
    the reliability of the data did not materially affect the results of our evaluation
    because the results were used for trend analysis purposes.

    Evaluation Type, Dates and Standards. We performed this evaluation from
    October 2000 through March 2001 according to standards implemented by the
    Inspector General, DoD.

    Contacts During the Evaluation. We visited or contacted individuals or
    organizations within and outside DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “ Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate adequacy of
    the controls.

    Scope of Review of Management Controls. We reviewed the management
    control program related to the overall evaluation objectives and determined that
    the pertinent management controls concerning QPL/QML Programs were
    inadequate (see the Finding section).

    Adequacy of Management Controls. DSC did not fully implement procedures
    for the Qualified Products List Program as required by regulations and
    directives. No internal Qualified Products List Program policy was formulated
    to define the responsibilities of DSC Richmond’s participants in the program.
    DSC Richmond could neither conduct facility audits nor adequately maintain the
    QPL Program’s list of specifications and contractors because it had not
    organized a trained staff to fully implement qualification procedures. In
    addition, DSC Richmond could not monitor product nonconformances because
    the appropriate mechanisms had not been instituted between those receiving
    reported deficiencies and those maintaining the qualified products lists.




                                        11
    Adequacy of Management’s Self-Evaluation. DSC Richmond management
    did not identify management of the QPL Program as an assessable unit and,
    therefore, did not identify or report the QPL management control weaknesses
    identified by the evaluation.

Prior Coverage
    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-054, “Defense Logistics Agency
    Product Verification Program,” February 21, 2001

    Inspector General, DoD, Report No. D-2001-002, “Defense Logistics Agency
    Customer Returns Improvement Initiative Program,” October 12, 2000

    Inspector General, DoD, Report No. 98-063, “Defense Logistics Agency
    Product Quality Deficiency Program,” February 5, 1998

    Inspector General, DoD, Report No. 95-166, “Defense Contract Management
    Command Management of Quality Assurance Resources,” April 11, 1995




                                      12
Appendix B. Qualified Products List Program
    A QPL is appropriate for items of supply that have a stable design or
    composition and will be continually available for an extended period of time.
    These criteria make it practicable to qualify individual products for the QPL
    without incurring prohibitive testing costs. The primary benefit of the QPL is
    that it improves the availability of products and shortens the procurement
    process because long or highly complex evaluations and tests of products are
    completed before the contract is awarded. A QPL also allows the manufacturer
    to provide, and the purchaser to obtain, satisfactory precontractual evidence that
    a product or a family of products has been tested and has met the requirements
    of the applicable specification. The purpose of the QPL Program is to reduce
    acquisition and procurement lead-time, reduce test costs, improve readiness
    through continuous availability of reliable products from viable suppliers, and
    establish the requirements for evidence of manufacturer’s capability in advance
    of acquisition.

    To originate a QPL, a preparing activity must justify the need to establish a
    requirement for a qualifying activity with the DLA Department Standardization
    Office. Once approved, the qualifying activity, which is assigned by the
    preparing activity, advertises to manufacturers and distributors to submit for
    qualification those products that can meet specification requirements so a listing
    can be established after a new specification has been issued. The qualification
    process begins when an application for qualification is received from a
    manufacturer. If required in the specification, the QPL staff conducts a facility
    audit that comprises an evaluation of the manufacturer’s quality and reliability
    assurance programs, test facilities, processes, materials, production facilities,
    test capability, incoming inspection, training, and product traceability. If the
    product or process qualified under the requirements of the applicable
    specification, the item would be added to the QPL.


Role of Deficiency Reports in a QPL Program
    When a nonconformance of a qualified product is reported, the QPL
    management is required to evaluate the severity of the problem and to initiate
    corrective actions. The actions include notifying the appropriate agencies of the
    nonconformance, having the manufacturer conduct a self-audit and prepare
    verification actions, and if the conditions for retention are not met, removing the
    product from a QPL. The maintenance component of the program relies on
    deficiency reporting systems for information regarding the problems associated
    with a particular manufacturer or part.

    The PQDR Program was established to identify and report deficiencies related
    to defective Government-owned products. The PQDR Program maintains a
    database of information regarding reported nonconformances, testing failures,

                                        13
and design flaws of Government-owned parts including qualified products. The
PQDR Program enables DSCs to exchange information about necessary
corrective actions throughout the acquisition and support process, and to
maintain a history of contractor quality. In addition, the PQDR Program
provides the initial reporting, cause, correction, and status of customer product
quality deficiencies. The guidance states that the investigative data gathered
from the PQDR Program should be used to identify problems, trends, and
recurring deficiencies detected on new or newly reworked Government-owned
products.

The key program participants include the deficiency report originator, screening
point, and the action point. The deficiency report originator documents product
quality deficiencies in a standard format using facsimiles or e-mail to the
applicable screening points. Screening points exist in all Military Departments
and are responsible for validating the adequacy and category classification of the
report before forwarding it to the action point. They also maintain a PQDR
database containing information on the original report, results of the
investigation, and a summary code.

PQDRs are designated by two categories: Category I and Category II.
Category I is defined as a product quality deficiency which could:

       •   cause death, injury, or severe occupational illness; could cause loss
           or major damage to a weapons system;

       •   critically restrict the combat readiness capabilities of an organization;
           or

       •   result in a production line stoppage.

A Category II deficiency report is defined as a product quality deficiency, which
does not meet the Category I criteria.

PQDRs are also generated as a result of test failures from product verification
testing. The PVP verifies conformance of material to contract specifications and
uses a supplier’s past performance for future source selections and best value
contracting decisions. Laboratory testing and product inspection are used as
tools to verify that items conform to prescribed technical requirements
(drawings, specifications, technical data, and item descriptions). Material may
be identified for inspection or testing by the Government before or after
acceptance; however, the emphasis is on inspection and testing of processes
before they are accepted. Product verification efforts are prioritized by assuring
conformance of critical items and items with the highest potential failure costs in
preference to noncritical and low potential failure cost items. Materials are
selected for inspection or testing from contractor’s plants, incoming receipts,
existing stock, or the Military Departments.

When a Defense Supply Center receives a PQDR, it is required to investigate
the cause, obtain test and investigation results, and initiate corrective action for
both contractor and Government attributable product quality deficiencies. Also,
as appropriate, the action point alerts activities and storage depots within the
action component of the suspect material. Prior to the PQDR closeout action,


                                     14
the cause of the problem is evaluated by the Product Center QAS and the
screening points of known military users are notified of the results of the
investigation and corrective action.




                                    15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Government Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Government Affairs
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
18
                                    Final Report
Defense Logistics Agency Comments    Reference




                  19
Final Report
 Reference




Pg 4




Pg 8




Pg 8




               20
     Final Report
      Reference




     Pg 8




21
Final Report
 Reference



Pg 9




               22
23
Final Report
 Reference




Pg i




Pg i



Pg 1

Pg 1




Pg 1
Pg 1




Pg 2

Pg 2



Pg 2




               24
     Final Report
      Reference



     Pg 4


     Pg 4
     Pg 5
     Pg 5

     Pg 5

     Pg 6


     Pg 7
     Pg 7


     Pg 7




25
Evaluation Team Members
The Audit Followup and Technical Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report.

David A. Brinkman
Kenneth H. Stavenjord
Chandra P. Sankhla
Jaime A. Bobbio
Wei C. Chang
